BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Jody
Lombardo, et al. v. City of St. Louis, et al., was sent via
Next Day Service to the U.S. Supreme Court, and via
Next Day and e-mail service to the following parties
listed below, this 17th day of September, 2020:
Robert Henry Dierker, Jr.
J. Brent Dulle
CITY COUNSELOR'S OFFICE
314 City Hall
1200 Market Street
Saint Louis, MO 63103
(314) 622-3361
dierkerr@stlouis-mo.gov
Counsel for Respondents
Jonathan E. Taylor
Counsel of Record
Gupta Wessler PLLC
1900 L Street NW
Suite 312
Washington, DC 20036
(202) 888-1741
jon@guptawessler.com
Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
, Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 17, 2020.

O

c;t)

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~~

If, ao dC)

c/&f2p ~

Notary Public
[seal]

JOHN 0. GALLAGHER
Notary Public,
of Ohio
My Commfsslon Expires
February 14, 2023

